APPENDIX

TABLE OF APPENDICES
Appendix A
Summary Order, United States Court of
Appeals for the Second Circuit, SEC v.
Martin A. Armstrong, No. 17-3572 (Apr.
23, 2019) ...................................................... App-1
Appendix B
Motion Order, United States Court of
Appeals for the Second Circuit, Martin A.
Armstrong v. SEC, No. 17-3572 (Apr. 11,
2018)............................................................. App-7
Appendix C
Order, United States District Court for
the Southern District of New York, SEC
v. Martin A. Armstrong, No. 99-cv-9667
(Oct. 6, 2017) .............................................. App-10

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________
Nos. 17-3572(L), 17-3576 (Con)
________________
SECURITIES AND EXCHANGE COMMISSION, UNITED
STATES COMMODITY FUTURES TRADING COMMISSION
Plaintiffs-Appellees,
ALAN M. COHEN,
Receiver-Appellee,
UNITED STATES OF AMERICA,
v.

Intervenor,

MARTIN A. ARMSTRONG,
Defendant-Appellant,
PRINCETON ECONOMICS INTERNATIONAL, LTD.,
PRINCETON GLOBAL MANAGEMENT LTD.,
Defendants.
________________
Apr. 23, 2019
________________
Before: Robert D. Sack, Peter W. Hall, and
Christopher F. Droney, Circuit Judges.
________________
SUMMARY ORDER
________________

App-2
Appeal from the closing orders of the United
States District Court for the Southern District of New
York (Castel, J.).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
closing orders of the District Court are AFFIRMED.
Defendant-Appellant Martin Armstrong appeals
from the orders of the United States District Court for
the Southern District of New York (Castel, J.) entered
on October 6, 2017, authorizing case closure,
approving the final plan of distribution submitted by
the court-appointed receiver, Alan Cohen (“the
Receiver”), and granting other ancillary relief.
Armstrong contends that the District Court abused its
discretion in granting the Receiver’s motion to wind
up the receivership because the SEC and the Receiver
violated the Final Consent Judgment by refusing to
return some of Armstrong’s personal property. We
assume the parties’ familiarity with the facts, record
of prior proceedings, and arguments on appeal, which
we reference only as necessary to explain our decision
to affirm.
The District Court placed into receivership the
assets of Armstrong’s companies and their
subsidiaries and affiliates (collectively, the “Corporate
Defendants”) in 1999. The Receiver took possession of
bank accounts held by the Corporate Defendants, 1 a
1 None of the accounts transferred to the receivership were
denominated in Armstrong’s name except for one account,
corresponding to a Corporate Defendant’s 401(k) and profitsharing plan. The Receiver, in his 2007 report, noted that he was
unable to resolve a dispute regarding Armstrong’s 401(k) account
with the account administrator and “invited” Armstrong “to

App-3
corporate beach house property, and non-cash assets
purchased with funds from corporate accounts.
Among the non-cash assets placed into
receivership were several storage lockers in New
Jersey and Pennsylvania, which had been leased or
otherwise maintained by the Corporate Defendants.
The Receiver maintained several additional storage
lockers in New York to store furniture, office
equipment, and computers recovered from the
corporate offices, and furniture and other items
recovered from the corporate beach house. All these
storage lockers and their general contents were
identified as receivership assets in the Receiver’s 2001
and 2007 reports, which were produced to Armstrong
when filed.
In 2008, the Receiver moved to approve a Plan of
Final Distribution (“the Plan”), and the court set the
Bar Date, i.e., the deadline by which persons and
entities were required to raise objections to the Plan
and to assert claims to receivership property, or
forever be barred from doing so. Proskauer Rose LLP,
as Armstrong’s counsel, filed a proof of claim
requesting legal fees on behalf of itself and unspecified
personal property on behalf of Armstrong. The proof of
claim asked the court “to direct the Receiver to refrain
from liquidating or abandoning any physical items” in
the storage lockers until Armstrong had a chance to
identify any personal property. Supp. App. 235. This
proof of claim was later withdrawn, however,
pursuant to a stipulated settlement agreement, which
present his claim” for any funds in that account. Supp. App. 42
n.59. Armstrong never did so.

App-4
the District Court approved, and in which Armstrong
explicitly waived any claim on the remaining
receivership assets. Armstrong filed no objection to
the Plan, and it was approved by the District Court. 2
In 2017, the Receiver arranged for Armstrong to
inspect the contents of the storage lockers. Ross
Neglia, a paralegal employed by the Receiver’s
counsel, arranged with Armstrong for him to inspect
the lockers and invited him to claim anything personal
to him, “i.e., [items] not acquired with corporate funds
and/or things like family pictures, books and clothes.”
App. 234. Neglia accompanied Armstrong and his son
to the storage lockers in New Jersey and Pennsylvania
over the course of two days. Following up in an e-mail,
Armstrong thanked Neglia “for allowing me to take
whatever I want from the storage units” and asked for
a price quote for delivering “the whole lot” to Florida,
so that Armstrong could “just sort out everything
there.” App. 253. The Receiver, understandably, did
not arrange for such shipping, and no further steps
were taken by Armstrong.
We review for abuse of discretion the District
Court’s decision to approve closure of the receivership.
See S.E.C. v. Credit Bancorp, Ltd., 290 F.3d 80, 87 (2d
Cir. 2002).

In its order approving the Plan, the court stated that all nonexcused “persons or entities with a claim that failed to file a proof
of claim prior to the Bar Date” were “forever barred, estopped,
and permanently enjoined from [] asserting a claim, whether
directly or indirectly, against any of the Receivership Entities,
Receivership Estates, Receivership Property or the Receiver.”
Supp. App. 270.
2

App-5
The District Court did not exceed the bounds of its
discretion in authorizing case closure over
Armstrong’s objection that some of his personal
property had not been returned to him. The District
Court determined that Armstrong’s objection was
“substantially rebutted” by Ross Neglia’s affidavit,
which described Armstrong’s visits to the storage
lockers, and the acknowledgements signed by
Armstrong, which identified personal items he took
from the facilities, including photo albums, travel
mugs, and a stamp catalog. Sp. App. 6-7. Though “the
power of a securities receiver is not without limits,”
receivers appointed at the SEC’s request are
“equipped with a variety of tools to help preserve the
status quo while the various transactions are
unraveled” and are responsible for “marshal[ing] the
assets” of the defendant. Eberhard v. Marcu, 530 F.3d
122, 131-32 (2d Cir. 2008) (internal quotation marks
and alteration omitted). Here, the District Court
reasonably found that the Receiver gave Armstrong an
adequate opportunity to reclaim any personal
possessions by giving Armstrong and his son
unrestricted access to “take whatever [they] want[ed]”
from the storage lockers, not limiting the time they
spent doing so, and refusing only Armstrong’s demand
to have “the whole lot” shipped to Armstrong in
Florida, which would have caused further delay,
expense, and risk to the assets. App. 253.
Armstrong’s contention that the District Court
abused its discretion by allowing the SEC and the
Receiver to violate the terms of the Final Consent
Judgment is unsupported by the provision of the Final
Consent Judgment on which Armstrong relies. That
provision states that “the SEC will assist the Court,

App-6
receiver and/or the parties in returning to Armstrong
property that belongs to him, to the extent that such
property, if any, that the Court orders to be returned
to Armstrong is in the possession, custody or control of
the SEC.” Id. at 147-48. The language relied on does
not impose any obligation on the District Court.
Notably, Armstrong never affirmatively moved or
otherwise requested that the District Court identify
some receivership assets as his personal property,
hold a hearing on this issue, or order the return of his
personal property.
Armstrong’s argument that he is entitled to a jury
trial under Eberhard, 530 F.3d at 132, is similarly
unavailing. Armstrong explicitly waived the right to a
jury trial in the Final Consent Judgment and never
made a demand for a jury trial. See App. 148; Fed. R.
Civ. P. 38(d). Eberhard, which held that a third party
was entitled to a jury trial to determine ownership of
property claimed by a receiver, does not bear on this
analysis. 530 F.3d at 136-37.
We have considered all of Armstrong’s remaining
arguments and conclude that they are without merit.
Accordingly, we AFFIRM the closing orders of the
District Court.
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk of Court

App-7
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________
Nos. 17-3572(L), 17-3576 (Con)
________________
SECURITIES AND EXCHANGE COMMISSION, UNITED
STATES COMMODITY FUTURES TRADING COMMISSION
Plaintiffs-Appellees,
ALAN M. COHEN,
Receiver-Appellee,
UNITED STATES OF AMERICA,
v.

Intervenor,

MARTIN A. ARMSTRONG,
Defendant-Appellant,
PRINCETON ECONOMICS INTERNATIONAL, LTD.,
PRINCETON GLOBAL MANAGEMENT LTD.,
Defendants.
________________
Apr. 11, 2018
________________
Before: Barrington D. Parker and Reena Raggi,
Circuit Judges *.
* Judge Debra Ann Livingston has recused herself from
consideration of this motion. Pursuant to Second Circuit Internal
Operating Procedure E(b), the matter is being decided by the two
remaining members of the panel.

App-8
________________
MOTION ORDER
________________
Appellees move to consolidate the abovecaptioned appeals, to dismiss the consolidated
appeals, to impose Fed. R. App. P. 38 and leave-to-file
sanctions against Appellant and his counsel, and to
file sur-replies. Appellant moves for voluntary
dismissal of his appeals, see Fed. R. App. P. 42(b), and
opposes the imposition of sanctions and Appellant’s
filing of sur-replies.
Upon due consideration, it is hereby ORDERED
that Appellees’ motion to consolidate the abovecaptioned appeals is GRANTED, see Chem One, Ltd.
v. M/V Rickmers Genoa, 660 F.3d 626, 642 (2d Cir.
2011); Fed. R. App. P. 3(b)(2), their motion to file surreplies is GRANTED, and Appellant’s motion for
voluntary dismissal is DENIED, see Fed. R. App. P.
42(b).
It is further ORDERED that Appellees’ motions to
dismiss are GRANTED to the extent Appellant seeks
to challenge his criminal conviction or sentence, or the
final distribution plan with respect to corporate
assets. See Order, No. 04-3091-cv (July 21, 2004)
(holding that “Appellant, a non-settling defendant,
does not have standing to challenge the settlement
distribution”); Order, No. 08-5902-cv (April 10, 2009)
(holding that challenges to criminal proceedings are
not cognizable in civil case and challenges to civil
proceedings are “precluded by the terms of the consent
judgment, which includes an explicit waiver of the
right to appeal”). However, Appellees’ motions to

App-9
dismiss are DENIED to the extent Appellant seeks to
challenge the district court’s decision concerning the
receiver’s distribution of Appellant’s personal
property. The parties must limit their appellate briefs
to the issue of whether the district court correctly held
that the receiver had properly disposed of Armstrong’s
personal property and, if not, what further
proceedings are required.
Finally, it is ORDERED that Appellees’ motions
for Rule 38 and leave-to-file sanctions are referred to
the merits panel, which will be able to consider all of
Appellant’s pleadings. Appellant is warned that his
failure to adhere to the limitation on his appellate
brief imposed by the present order may result in the
imposition of serious sanctions.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

App-10
Appendix C
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
________________
No. 99-civ-9667
________________
SECURITIES AND EXCHANGE COMMISSION,
v.

Plaintiff,

PRINCETON ECONOMICS INTERNATIONAL, LTD.,
PRINCETON GLOBAL MANAGEMENT, LTD., and
MARTIN A. ARMSTRONG,
Defendants.
________________
COMMODITY FUTURES TRADING COMMISSION,
Plaintiff,
v.
PRINCETON ECONOMICS INTERNATIONAL, LTD.,
PRINCETON GLOBAL MANAGEMENT, LTD., and
MARTIN A. ARMSTRONG,
Defendants.
________________
Oct. 6, 2017
________________
ORDER
________________

App-11
CASTEL, U.S.D.J.
Alan M. Cohen was appointed as Temporary
Receiver in the above two proceedings on September
13, 1999. The Receiver proposed a Plan of Final
Distribution (the “Plan”) in or about June 20, 2008.
The Court set a date for any objections to the Plan and
none were received. After a hearing on September 28,
2008, the Court entered an Order on September 30,
2008 approving the Plan of Final Distribution. The
Receiver was obligated to comply with the Plan,
including its requirement for the filing of a Final
Report. The Receiver has now filed his Final Report
and has moved for Orders (I) authorizing certain case
closure activities; (II) discharging the Receiver and
enjoining claims against the Receiver and his
professionals; and granting certain ancillary report.
Defendant Martin Armstrong, who filed no opposition
to the Plan, opposes the motion.
In substantial part, he does so on the ground that
he believes he was denied the effective assistance of
counsel in a criminal proceeding brought against him.
United States v. Armstrong, (S1) 99 cr 997 (JFK). He
asserts that the Receiver restrained assets that could
have been used to retain counsel of his choice in the
criminal proceeding. The Court notes that Judge
Keenan who ably presided over this separate
proceeding wrote as follows: “Armstrong is amply
represented by an able team of four lawyers, one of
whom I appointed as a result of the July 27, 2006
conference, and several paralegals.” (99 cr 997(JFK);
Order of Aug. 15, 2006.) Armstrong entered a plea of
guilty before Judge Keenan on August 17, 2007.

App-12
Armstrong’s present objections largely relate to
the Plan itself and not to the Receiver’s
implementation of the Plan. Armstrong waived his
right to object to the Plan by not objecting prior to its
2008 approval. Armstrong has been represented in the
above-captioned actions by the Proskauer Rose LLP
and/or Thomas V. Sjoblom, previously of that firm,
from the period leading up to the approval of the Plan
to the present. (Sjoblom Ltr., Aug. 29, 2008; Doc 441.)
Of course, the Plan had no impact on Armstrong’s
guilty plea before Judge Keenan because it was
entered before the Plan was proposed.
Armstrong’s objection to a distribution to Yakult
Honsa, Co. Ltd. (“Honsa”), at this juncture, is
untimely. The settlement with Yakult was approved
by Judge Owen on or about February 23, 2004 (Doc
322) and again as part of the approval of the Plan.
The Court has considered each of Armstrong’s
other objections. His objections concerning personal
property are substantially rebutted by the affidavit of
Ross Neglia, including the signed acknowledgements
by Armstrong that are annexed thereto. The
objections to the document disposal provisions are
denied. The Receiver’s one-year document retention
proposal, in the context of all documents previously
produced to Armstrong, is a reasonable one.
Armstrong’s other objections, several of which
challenge rulings by Judge Owen in the period 1999 to
2001, are unsupported, untimely and/or without
merit.
The Court has reviewed the entirety of the
Receiver’s Final Report, including the request for
authorization to perform certain remaining tasks and

App-13
make remaining distributions. The Court has also
considered the request for a discharge order which will
include a limitation upon the Receiver’s liability and
an injunction against suits against him. The proposed
relief is appropriate under the circumstances. With
the final distribution, a total cash amount of
$654,190,837 will have been distributed to the
noteholder
claimants
which
includes
both
distributions by the Receiver of about $80 million and
payments by Republic New York Securities
Corporation.
The undersigned is a relative newcomer to the
case, having only presided over these actions since
December 29, 2006. Alan M. Cohen has faithfully
served as the Court-appointed Temporary Receiver
since the closing days of the last century—a period
now in excess of 18 years. He has not shirked his
responsibilities nor complained that, at times, they
became personally inconvenient, unpleasant or
burdensome. Although he left his law firm, O’Melveny
& Myers LLP, in 2003 to enter the world of finance
(including service as a Managing Director of a major
investment banking firm), he stayed with the
assignment. He has elected not to file a Final Fee
Application. He and his counsel Tancred Schiavoni
enjoy the thanks and appreciation of this Court for
their admirable service.
SO ORDERED.
Dated: New York, New York
October 6, 2017

[handwritten: signature]
United States District
Judge

